Audit Report



Return
    to the USDOJ/OIG Home Page




Inter-Tribal Integrated Justice Pilot Project Grant Awarded to the University of Arkansas Criminal Justice Institute National Center for Rural Law EnforcementLittle Rock, Arkansas

Report No. GR-80-04-003


January 2004
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Inter-Tribal Integrated Justice Pilot Project grant.  The U.S. Department of Justice, Office of Justice Programs, Bureau of Justice Assistance, awarded the grant, including one supplement, to the Criminal Justice Institute, National Center for Rural Law Enforcement (Institute), in Little Rock, Arkansas.  The purpose of this grant is to provide technical assistance and training to the Navajo Nation, Hopi Tribe, and Pueblo of Zuni justice agencies to promote more effective sharing of information within the tribes.  As of September 15, 2003, the Institute was awarded a total of $1,562,900 to establish an information technology infrastructure that would facilitate inter-tribal integration and provide training necessary to encourage the use of information systems and support sustainability.
We tested the Institute's accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Of the $1,299,428 expended as of September 15, 2003, we tested transactions totaling $618,388 (48 percent) and found that the grantee was generally in compliance with the grant conditions tested.  We also tested a sample of accountable property purchased with grant funds.  For those property items tested, we found that the grantee did not maintain a complete and accurate inventory.
Our results are discussed in detail in the Findings and Recommendations section in this report.  Our audit objectives, scope, and methodology appear in Appendix I.